<html>
<title> - Revolution in Armenia? The Power and Prospects of the Protest Movement</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




115th Congress                                                                                 Printed for the use of the
                                                                                                                                                                Printed for the use of the
2nd Session                                                              Commission on Security and Cooperation in Europe
________________________________________________________________________________________________________________________   




                         
                     Revolution in Armenia?
 The Power and Prospects of the Protest Movement of the Protest Movement
  




                  



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     April 26,2018 
                     


                                                                        
                                                                        
                  
                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2018                                                










                Commission on Security and Cooperation in Europe
                        234 Ford House Office Building
                             Washington, DC 20515
                                 202-225-1901
                             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f3c2c3c3a1f323e36337137302a2c3a71383029">[email&#160;protected]</a>
                             http://www.csce.gov
                              @HelsinkiComm
                              
                              

                        Legislative Branch Commissioners
                                       
                                       
                                       
                                                              
              HOUSE                                                SENATE
CHRISTOPHER H. SMITH, New Jersey                         ROGER WICKER, Mississippi,
          Co-Chairman                                     Chairman
ALCEE L. HASTINGS, Florida                               BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                              JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                                CORY GARDNER, Colorado
STEVE COHEN, Tennessee                                   MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                           JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                                 THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                                TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                                    SHELDON WHITEHOUSE, Rhode Island
                        
          
            
                           Executive Branch Commissioners      
          
                                DEPARTMENT OF STATE
 	                        DEPARTMENT OF DEFENSE
                                DEPARTMENT OF COMMERCE
                                
                                
                                        (II)


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                            (III)
                            
                            

 
Revolution in Armenia? The Power and Prospects of the Protest Movement

                              ____________
                              
                             April 26, 2018


                                                                        Page
                                  
                                  
                              PARTICIPANTS


Everett Price, Policy Advisor, Commission for Security and Cooperation
  in Europe .............................................................. 1

Elen Aghekyan, Independent Research Analyst .............................. 3

Stephen Nix, Eurasia Regional Director, International Republican 
Institute ................................................................ 5


                              (IV)





Revolution in Armenia? The Power and Prospects of the Protest Movement

                              ----------                              

                             April 26, 2018
                             
    Commission on Security and Cooperation in Europe
                       Washington, DC                            
                             




    The briefing was held at 4:01 p.m. in Room SVC 200, Capitol Visitor 
Center, Washington, DC, Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe, presiding.
    Panelists present: Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe; Elen Aghekyan, Independent Research 
Analyst; and Stephen Nix, Eurasia Regional Director, International 
Republican Institute.

    Mr. Price. Good afternoon. Thank you, everybody, for coming. On 
behalf of our chairman, Senator Roger Wicker, and our co-chairman, 
Congressman Chris Smith, I would like to welcome you to this U.S. 
Helsinki Commission briefing on the ongoing protest movement in 
Armenia. I'm really looking forward to the conversation today since we 
find ourselves in the midst of a fascinating and fluid moment of 
transition in Armenia that almost no one could have predicted just a 
couple weeks ago. We decided to pull together an expert panel on short 
notice in light of the dizzying pace of developments in Yerevan. 
Considering how much has transpired in recent days, allow me to say a 
few words to set the stage for our discussion before I turn the floor 
over to our briefers.
    April was supposed to be a month of significant transition for the 
Republic of Armenia, but not like this. This month, the country's 
political system was slated to formally transition from a semi-
presidential system to a parliamentary one in accordance with profound 
constitutional changes approved by a popular referendum in December 
2015. The 2015 referendum was initiated by Armenian President Serzh 
Sargsyan, who served as president since 2008 and whose final 5-year 
term in office ended earlier this month. Opponents of the referendum at 
the time argued that the constitutional changes were employed by the 
president to extend his time in office by assuming the post of prime 
minister in 2018. To allay these concerns, Sargsyan vowed then to not 
seek the position of prime minister at the end of his term.
    Yet, as parliament prepared to meet earlier this month to elect a 
new head of government, it became clear the ruling party would put 
forward Sargsyan for the newly empowered vote. The country's fractured 
opposition cried foul, and a protest movement emerged. On Monday, after 
more than week of surging nonviolent protest and acts of civil 
disobedience, and just 4 days after holding his first Cabinet meeting, 
Sargsyan stepped down as prime minister, ushering in an uncertain 
period of political transition.
    This is a superficial gloss on the present political moment that 
our panelists will flesh out and help us to better understand. My 
summary focuses on the over fault lines in the political dispute, but 
we know from experience that the energy that fuels massive popular 
movements is most often drawn from undercurrents of discontent that are 
imperceptible at the surface until they burst into the open in 
unpredictable ways. It strikes me as well that the political drama in 
Yerevan, which is in many ways a powerful one, is a personal one, too. 
The current contest has been framed by some as a contest between a 
powerful establishment, Sargsyan, and the scrappy and disheveled 
protest leader, Nikol Pashinyan.
    After the election of Sargsyan in 2008, Pashinyan was at the helm 
of a large-scale protest movement contesting the legitimacy of the 
election, an uprising that Sargsyan's government put down with force, 
and pushed Pashinyan into hiding. There is an interesting note of 
symmetry to the fact the beginning to Sargsyan's term in office is now 
bookended by Pashinyan leading a successful popular movement to unseat 
him.
    We have intentionally put a question mark in the title of this 
briefing because this outcome, Sargsyan's resignation, raises more 
questions than it answers. Put simply: What happens next? What will be 
the outcome of early dialog between the government and protest leaders? 
Can the movement achieve more lasting reform of the entrenched power 
structures in Armenia's political system? Will this collective 
mobilization translate into sustained political engagement? What are 
the regional implications of this domestic upheaval?
    We have an excellent duo of briefers to help us today formulate, 
understand, and hopefully answer these questions and others. I 
neglected to introduce myself. I'm Everett Price. I'm a policy advisor 
on the U.S. Helsinki Commission, where I cover Armenia and the rest of 
the Southern Caucasus.
    Elen Aghekyan will speak first. She is an independent researcher 
and former research analyst at Freedom House, where she managed Europe 
and Eurasia content for the organization's Freedom in the World and 
Freedom of the Press surveys. She most recently authored the Armenia 
chapter of Freedom House's Nations in Transit 2018 Report, which is a 
comprehensive, comparative, and multidimensional study of reform in the 
former Communist States of Europe and Eurasia. I think we've very lucky 
to have her perspective as a result of her work on that report, because 
it casts this issue in the broader light of what's been going on 
politically and institutionally in Armenia over the years.
    Next, we have Stephen Nix, who joined International Republican 
Institute [IRI] in October 2000 as a regional program director for 
Eurasia. In that position, he oversees programs in Belarus, Georgia, 
the Kyrgyz Republic, Moldova, Russia, Ukraine, perhaps elsewhere. You 
can correct me if I'm wrong. And Nix joined IRI after serving for 2 
years as senior democracy specialist at the U.S. Agency for 
International Development, USAID. Nix is a specialist in political 
party development and judicial and legal reform in the former Soviet 
Union.
    So the way we'll proceed is I'll turn it over to Elen, who will 
give us our rundown of her experience following these events over the 
past several days, several weeks, and then casting it in light of the 
broader issues at stake. And then Stephen will give his remarks about 
the broader legal framework, the constitutional issues at stake, the 
U.S. implications. And then I'll ask some questions and also turn it 
over to the audience for your questions as well. So, without further 
ado, thank you, Elen, so much for coming here.
    Ms. Aghekyan. Thank you, Everett, for inviting me. And thank you, 
everyone, for being here.
    So the events of the past week have certainly been unexpected to 
many, including myself. And though they are changing rapidly every day, 
there are already some early lessons learned. One is that civil society 
in Armenia, though routinely sidelined in policymaking over the past 
two decades, is much more powerful than many of us had previously 
thought. Another, as Tom de Waal has aptly put it, is that post-Soviet 
rulers are not as secure as they look from a distance. And a third, if 
I may add, as we're going to talk about the regional context later, is 
that not every overthrow of a Eurasian leader has to always be about 
Russia.
    We're a few days now from Prime Minister Sargsyan's resignation. 
And attempts at negotiations are underway. We know now that on May 1st 
the Parliament is going to vote for an interim prime minister. And all 
of the agreements and decisions that the protestors and the government 
are going to make together up to that point will be critical as to how 
the process goes from there. Major changes may be happening on the 
ground as we speak here today. So I'm going to refrain for giving a 
chronological analysis of the many things that have happened, which 
would keep us in this room for many hours. Instead, I'm going to focus 
on the key on-the-ground tensions and questions at play based on what 
we know today, as well as on what we've known for a very long time 
about deeply rooted problems in Armenian democracy.
    So, first, the factors leading up to Sargsyan's resignation from 
the office of prime minister, which he held for less than a week after 
being president for 10 years. Beginning on April 13th, thousands of 
people demonstrated in the streets of Yerevan, led by Nikol Pashinyan, 
who is one of the leaders of the Yelk Alliance, which holds a few seats 
in the National Assembly. At their height, the demonstrators drew more 
than 100,000 individuals to the streets of Yerevan alone, which is a 
staggering number if you think that the country only has 3 million 
people. And they were joined by groups in towns and villages across the 
country as well.
    It's important to remember that mass demonstrations have been a 
staple for Yerevan, at the very least, for the past several years. And 
we've watched as many of them--often arising over socioeconomic issues, 
but almost always taking on an anti-government undertone--have been met 
often with police violence and few, if any, concessions from the 
government. I, myself, to the moment before Sargsyan's resignation, 
expected a similar outcome in this case as well. But, remarkably, the 
protests in this case have proved to be very, very different.
    There were some tense moments, that is true. The protest leaders, 
including Pashinyan, were temporarily detained overnight, which was a 
very tense moment. And there are also reports of police violence 
against participants and journalists, which has been a huge human 
rights issue in Armenia since independence. However, it's important to 
note a few key distinctions that set these protests apart from others. 
And the first is that not a single shot was fired during these 
protests. And in general, they featured a lower level of violence than 
protests in recent years. The protests didn't even erupt into violence 
or chaos when the protest leaders were detained overnight, which was 
perhaps sort of the lowest moment in the whole movement.
    At the height of the demonstrations, right before Sargsyan's 
resignation, unarmed soldiers even joined the demonstrators, which was 
absolutely unprecedented. Strikes were a part of the equation. Major 
corporations joined in support. And the protest also had a remarkably 
young demographic, with high school students and university students 
joining despite severe limitations, including in one case at Yerevan 
State University administrators literally locking the lecture halls to 
keep students from going outside. More importantly, unlike 
demonstrations in the past few years which took on sort of broad and 
not very well-focused anti-government tones, these demonstrations 
focused on a singular, very clear domestic political goal initially, 
and that was the resignation of Sargsyan from the office of the prime 
minister. And of course, most importantly, they succeeded in this 
initial goal.
    So the direct roots of the protester's calls, which Everett 
mentioned, lie in a government transformation that began in 2015 when 
the ruling party pushed through a constitutional change. And I want to 
emphasize that this change, which shifted the country from semi-
presidentialism to a parliamentary system, was heavily flawed by the 
worst problems that have plagued Armenian elections in recent years. 
And that is fraudulent voting, abuse of administrative resources by the 
ruling party, alteration of votes, voter intimidation, vote buying--
basically staples of the electoral process. Opposition members, civil 
society activists, and many watchdogs in Armenia and around the world 
suspected some questionable motives behind these changes, noting, for 
example, that they make it easier for one party--and in this case the 
ruling party--to grab power and retain a parliamentary majority.
    Some analysts also noted that the changes could be a way for a 
single individual, like Sargsyan, to hold on to power for a much longer 
time, simply by going from the president's office--in which his second 
term has already expired--to the prime minister's office, which 
technically does not have any term limits. So Sargsyan initially said 
that he wouldn't do this. Then for the past year, he actually spent 
some time sort of dodging the question or saying that he would like to 
be involved in security or something different. But then his motives 
and the party's motives became very clear this April, when he was 
nominated and voted in without any other candidates even being 
considered. And then a day later, as we know, he submitted his 
resignation.
    So this was the first victory in the protest leaders and in 
Pashinyan's four demands, which were announced about a week into the 
protest. And these were: Sargsyan's resignation, the election by 
parliament of a people's candidate as an interim prime minister--which 
this day seems to mean, at least on what the protesters said, Pashinyan 
himself--and then establishment of a transitional government, and then 
the fourth step is that if in 40 days the National Assembly does not 
accept the plan put forth by the government, snap elections. So as the 
protesters are moving on from this first step, which was an unexpected 
success, they're already coming face-to-face with some of the deeply 
rooted problems facing democracy in Armenia.
    Those are problems not of an individual but of institutions. 
Armenia has a ruling party and oligarchic networks that have co-opted 
the political system and changed many institutions to basically become 
shells to prop up their power. And this, along with a very weak and 
corrupt judiciary, along with corruption just pervasively overall, from 
systemic corruption to petty bribes, as well as with very weak 
independence of the media, is what is going to make any meaningful 
change a very uphill battle. This is already problematic now as the 
protest leaders are just trying to see eye-to-eye with the government 
and to sit down with talks, as they can't seem to agree on the correct 
format or the correct people's involvement and how much the public 
should be involved in. And they're going to be more problematic, in my 
opinion, once the process actually moves toward a new parliamentary 
election, which is much more difficult to do in a free and fair manner 
than simple negotiations.
    So it's true that from April 13th to April 23d the protests really 
focused on one man, Sargsyan, who tried to use constitutional 
engineering to stay past his democratic expiration date. But they've 
become about much more than just one man since. I want to emphasize 
that while Sargsyan stepped down, the regime has not. And the ruling 
party, the HHK or the RPA, is quite a force. Some believe that without 
Sargsyan, their leader, the party, which has a very weak ideological 
draw, will crumble. But I don't think it's that simple. And I don't 
think the road forward is going to be that straightforward, because 
what is ideology if you have a grip on administrative resources, a 
clientelist network that reaches across the country, and a majority in 
the parliament?
    So, admittedly, there are cracks currently in the party's 
parliamentary strength. Its coalition partner has left. Some of the 
systemic opposition groups have aligned themselves with the protesters. 
And the acting Prime Minister Karen Karapetyan--well, Karen Karapetyan 
seems to be losing favor within his own party by the hour. But the RPA 
is also made up of and connected to some very problematic characters. 
Some of them are oligarchs who control entire sectors of Armenia's 
economy. So dismantling such a system, beyond the corruption and beyond 
just the elections, it's going to mean giving people a fair and free 
chance to vote such individuals out of office if they want to, or to 
keep them in office if they want to.
    And getting to that step means a whole host of issues. It means 
open dialog among all of the parties right now, which is proving to be 
very difficult. It means new election commissions. It means a better 
electoral law, a stronger judiciary, more independent media, and 
stronger checks on power--which are all very hard to achieve. And 
because I don't want to leave us on a very negative note before we move 
forward, I wanted to say that this is a very, very difficult roadmap 
ahead, or perhaps, you know, a road that does not have a map at all.
    But I want to go back to my beginning point of just how 
unprecedented and unexpected this whole development has been. And as we 
move on to talk about the regional aspect of all of this, I'd like to 
say that perhaps, you know, from afar, to me personally at least and 
professionally, it gives a kind of hope for democracy in Eurasia that I 
had almost given up on.
    Mr. Price. Thank you very much, Elen. I appreciate the hopeful 
remarks. That's not something we get to do terribly often at the 
Helsinki Commission. So I'm happy for you to end on that note.
    Thank you, Stephen. You can go.
    Mr. Nix. First of all, thank you, Everett, for inviting me to speak 
today at a very critical time in a very critical part of the world. I 
appreciate the opportunity.
    And my testimony today is divided into three distinct sections. The 
first, I wanted to give some political context to describe why we are 
where we are today. Second, I wanted to go through some of the 
constitutional and statutory framework that could help guide us through 
the next several weeks which will be very crucial procedurally to see 
how things play out. And then third, I wanted to outline some 
recommendations for the United States Government as to what it might do 
to assist the government and the people of Armenia during this critical 
time.
    Now, Elen just gave you an excellent previous of the context that 
got us where we are today, so I'm going to skip that part of my 
testimony and go straight to yesterday, as a matter of fact, when the 
Republican Party had a parliamentary majority of 65 out of 105 seats. 
That's all changed now. Yesterday the party's coalition partner, the 
Armenian Revolutionary Federation, the Dashnaks, left the coalition. 
This leaves the ruling party with only 58 seats. They require 53 to 
elect a new prime minister. So it's definitely within the realm of 
possibility for change there.
    Before April 25th, two opposition parties were in parliament--the 
Tsarukyan Alliance Prosperous Armenia, which has 31 seats, and the Way 
Out Alliance, which as you know is Mr. Pashinyan's party. So a 
significant number of votes that could be assembled. Both of these 
parties are pro-European. Both are generally centrist in orientation. 
And despite the sizable opposition presence in the National Assembly, 
all the leadership--including the acting prime minister and the 
president--are key allies of Sargsyan. And Sargsyan maintains his 
position as party leader.
    The obvious concern now is that any new government that might 
emerge from these events would still be under Sargsyan's control. And 
this has meant that the resignation of Sargsyan has not placated the 
protesters. Importantly, Pashinyan's Way Out Alliance has been joined 
on the streets by their fellow parliamentary opposition party, the 
Tsarukyan Alliance, and by the non-parliamentary Heritage Party and the 
Social Democrat Hunchakian Party. The Republican Party appears intent 
to rely on a 58-seat majority to retain control of parliament, but only 
if they can find a politically and socially viable way to do so. And 
this may prove very difficult given the atmosphere that exists in the 
streets of Yerevan.
    Some of the constitutional requirements that we see--and actually 
are fairly well written, I have to say--but the constitution of 
Armenia, as amended, rather specifically outlines the processes that 
must be followed in this current crisis. Parliament has 7 days to 
appoint a new prime minister. Any party with representation can name a 
candidate. And any candidate with the support of more than one-third of 
parliament will be put before the full body for a vote. Fairly 
straightforward. A simple majority will elect the new prime minister. 
If the National Assembly is unable to elect a prime minister on the 
first vote, they have seven more days to hold an additional vote. If no 
candidate receives a majority on the second ballot, the National 
Assembly must dissolve and call new elections.
    So, with only two parties that represent more than one-third of 
parliament, the Republicans and Sargsyan, it's likely that there will 
only be two candidates for prime minister, making it more than likely 
that one of the two candidates will receive an outright majority. The 
newly elected prime minister will have 15 days to form a government. 
Failure to do so will not necessarily trigger new elections, as there 
are constitutional provisions that allow the prime minister to appoint 
a government, quote, ``by virtue of law.'' The new government then has 
20 days to propose a new governmental program or agenda. And if that 
agenda is not accepted by a majority of the National Assembly, the body 
must be dissolved, and new elections held.
    In the event that special elections are called, voting must be 
conducted within 30 to 45 days of dissolution. On April 26th, 
Karapetyan announced that the National Assembly would vote on a new 
prime minister on May 1. Based upon this, it would appear that the 
National Assembly's hoping that a consensus candidate can be found that 
might placate the opposition and potentially avoid the need to dissolve 
parliament. With this in mind, there are probably three possible 
scenarios.
    No. 1 would be that the National Assembly goes through the 
constitutional process to appoint a new prime minister, who 
successfully adopts a program and those special elections are called. 
Second scenario is the National Assembly goes through the 
constitutional process to appoint a new prime minister but is unable to 
adopt a program within 20 days, and special elections are called 30 to 
45 days later. Third and last, the National Assembly is unable to 
appoint a new prime minister and emergency elections are called, again, 
between 30 and 45 days later. So these scenarios pose several possible 
timelines that need to be mindful of.
    For the first outcome, a new government would be fully formed and 
operational no later than June 11. For the second outcome, emergency or 
special elections would take place between July 11th and 26th. And then 
in the third scenario, special elections would need to be called no 
later than June 6th to June 21st. So those are the timelines. That's 
what we're looking at. That's the possible procedural outcomes.
    But given the Republicans' majority in the National Assembly it's 
doubtful that a deal could be made with the opposition without 
endangering that majority. It's even more doubtful that the street 
protesters, having achieved initial success, would be willing to wait 
beyond the initial week required for the appointment of a new prime 
minister. Opposition leaders have demanded that Pashinyan be named the 
new prime minister. And it remains to be seen if the president will 
accede to this demand. So it's all about wait and see. So over the next 
several days, we'll all be watching very closely.
    Third and last, let me just go through a couple of recommendations 
that I think would be beneficial in terms of the U.S. Government 
involvement. Despite Armenia's membership in the Russia-led Eurasian 
Customs Union and its relatively warm relationship with the Russian 
Federation, Armenia also has strong ties to the West. This is true 
thanks to the large diaspora populations in the United States and 
France. The United States has a history of democracy work in Armenia, 
including providing assistance to political parties and NGOS from 1992 
until the mid-2000s. During that period, the International Republic 
Institute formally conducted national public opinion polls which were 
shared with politicians from both sides of the aisle. We did this to 
help them with their messaging, their targeting, and their party 
building.
    It would be in the best interests of the U.S. and Europe to help 
Armenia resolve the crisis in a constructive and democratic manner by 
reviving this kind of assistance to shore up the country's democratic 
institutions. Notwithstanding early elections, there is much that the 
U.S. can do to help Armenia resolve this crisis. There's been very 
little democracy promotion and governance work in the country in the 
last decade, but the last 2 weeks have proven--as Elen said--that there 
is an appetite for both among the opposition and civil society. While 
the scope of such work must depend on the priorities of the USAID and 
Yerevan, at the very least nonpartisan work with youth, with women, and 
other groups could provide an opportunity to share lessons in 
democratic values and good governance.
    Such efforts would be focused on building skills such as debate and 
policy formation, and not necessarily on partisan activities. Such 
efforts would also seek to involve the full spectrum of political 
parties, including the governing party. In the increasingly likely 
event that special elections are called and lead to significant gains 
by the opposition, opportunities will open up to work with the new 
government on a number of things--policy development, administrative 
skills, and internal party democracy. This will also increase 
opportunities to work with local officials on increasing efficiency and 
improving service delivery. The opportunities for political party 
strengthening are manifold. Like other countries in the region, Armenia 
has several long-established political parties. However, the current 
opposition parties have been in opposition since the late 2000s, as the 
Republican Party has dominated political space.
    Although these parties have parliamentary representation and strong 
popular support, their transition from political opposition to 
governing can be very difficult. IRI stands ready to provide the 
necessary party-building and policy development assistance should it be 
requested. Given the required timeframe between the dissolution of 
government and new elections, should they happen, which could be any 
time between May 30th and July 14th, it's unlikely that an 
international election observation could be assembled in a timely 
manner. But IRI and others are confident that an assessment could be 
made, could be put together, and could assess these elections.
    It's crucial that Armenians have access to high-quality polling so 
that decisionmakers and the general public can receive unbiased 
information on political questions and concerns. Periods of intense 
change, like we're seeing now, also lead to divergent public 
narratives. And accurate and unbiased polling is vital to 
distinguishing citizen needs from the misleading information propagated 
by dishonest and outside actors. IRI has conducted high-quality public 
opinion surveys in Armenia and in the region over the last 20 years. 
This included regular polling in Armenia up to 2008. And IRI hopes to 
once again resume this effort.
    In closing, I'd like to say that Armenia faces the prospect of 
transformative change in its government and its policies. The United 
States must do more than observe and analyze. It must be part of 
helping Armenia to move from crisis to progress. The crisis represents 
a unique opportunity to help Armenia as it continues on its democratic 
path, and to demonstrate to the Armenian people that the West, and the 
United States in particular, is a reliable partner in the country's 
growth and development. Democracy assistance organizations like IRI 
will be vital partners to this effort in Armenia, as they have been 
throughout the region.
    Thank you very much for your attention.
    Mr. Price. Thank you very much, Stephen. And thank you, Elen. Thank 
you both for your excellent presentations. I think with your opening 
remarks we've gotten an excellent picture of the political and tactical 
updates from the past few weeks, and then also the broader legal and 
international context in which these events are taking place.
    I'd like to open with just a few questions before turning it over 
to the audience. And I wanted to start with the youth, who've been out 
in front of this, and really the protagonists of the protests. I was 
wondering, from both of your perspectives, what is the driving force 
behind the large youth participation that we've seen in these weeks? 
What are the key grievances? Is there any precedent for this kind of 
youth mobilization in Armenia? And do you think that there are chances 
for this to translate into electoral participation?
    I'll just say very briefly that I had the opportunity to 
participate in the OSCE's Parliamentary Assembly observation of the 
last parliamentary elections in April of last year that led to the 
election of this parliament that now is in the midst of this 
transition. And one thing that was striking was the youth that were 
out--a lot of them, I think, affiliated with the Yelk Alliance that 
Nikol Pashinyan represents. And that was striking. And yet, as you've 
noted, there is so much influence from oligarchs, from established 
parties. So is this really an inflection point, do you think, for the 
youth of Armenia? What's the way forward?
    Ms. Aghekyan. Okay, I'll have a try. So absolutely, there are huge 
numbers of youth. And whether that's high school students who can't 
vote yet or university students and the youth who are of voting age. 
And I think there are several factors driving their participation. One 
is undeniably Pashinyan's and the protest leader's charisma and pull. 
Their character has really seemed to be exactly what's needed for a 
popular movement like this. And the other I would say is the young 
nature of the Yelk Alliance itself. There are young journalists, civil 
society activists who are part of the alliance, who now hold seats in 
the parliament--which I think is a big change for Armenia. And they are 
also at the forefront, helping Pashinyan lead this movement. And I 
think--you know, as you said, there is a huge appetite for change and a 
huge appetite for democracy. And I think the general and overwhelming 
sense among young Armenians is that they wanted to have a say in what 
tomorrow looks like for them.
    Mr. Nix. Let me do a little bit of comparative analysis, because 
IRI does polling throughout the former Soviet space. If you look at the 
polling in countries like Georgia, like Moldova, like Ukraine and 
others--when you look at the youth crosstabs, young people don't watch 
television in the same numbers that older people do. They're obviously 
attracted to social media. And that's where they get much of their 
political news. So one would think they might have different opinions 
and be more encouraged to be participatory. But the data also shows 
that youth are the least likely to vote, to join a political party, or 
be politically active. It's discouraging, because the hope for the 
future is really the youth. That's why it's both astonishing and really 
impressive to see this show in the streets of Yerevan, and young people 
taking into their own hands the situation and demonstrating that they 
want to have a say in their country's future.
    We saw glimpses of this in the Maidan. And that's why it's so 
encouraging to see this in Yerevan, young people getting out, 
demonstrating. And the polling also shows that young people are mostly 
concerned, primarily, with jobs. It's no different in Armenia. The 
youth do not think they have a positive future under the current 
system, under current conditions. They want change. And they're 
advocating for change. And it's very--it's really heartwarming to see 
this.
    Ms. Aghekyan. Yep. And I'll also add that we saw some youth 
participation in protests that happened in the past 5 years, so, in 
Electric Yerevan, which happened a few years ago and was focused on 
electricity prices. Last year when the parliament was in the process of 
changing the rules regulating military--mandatory military service, we 
also saw youth participation. But I think the issue now is so just 
central to life and the future, whether it's political or for their 
jobs or just for life within the borders of Armenia, that this issue 
just had a much larger draw than the issues that were at the forefront 
of protests in the past years, and whether that's electricity prices, 
or pensions, or military service, which would have affected just half 
of youth.
    Mr. Price. Thank you. And you mentioned the central role of 
Pashinyan several times, and then also in terms of how he has drawn 
youth to this movement. I was wondering if you could tell us a little 
bit more about who he is, what draw people to him, maybe elements of 
his background that might be relevant. And also, for the Yelk Alliance, 
which is another thing we've talked about quite a bit--what's its 
program? What's its agenda or approach or ideology that is also drawing 
so much popular support?
    Ms. Aghekyan. So Nikol Pashinyan is a very interesting character. 
He's been active in politics for quite some time, but his background is 
as a newspaper editor. So he was a journalist. And he was also--he has 
been activist for quite some time. He does have a--you know, some 
people have--in the media, have called him a newcomer, or someone who 
doesn't have a lot of political experience. And I think that's sort of 
a yes and no. He doesn't have a whole lot of high-level governance 
experience, but a few years ago he founded a party, Civil Contract, 
which he called a public political union. And this is one of the big 
bodies that's in the Yelk Alliance.
    And the Yelk Alliance overall, I think its draw is how it's focused 
on progress, how it's focused on democracy and civil rights. And I 
think the fact that Pashinyan is very frank about these issues, and the 
fact that he has framed himself and acted as well as just, you know, 
the people's leader. He's in the streets always, in his camo shirt with 
his backpack. He has a very attractive image if you're thinking about 
sort of the logistics of how to get people to follow you. I think just 
the way that he's approached the people that he's asking to follow him, 
as well as the progressive, the human rights-minded, and sort of the 
positive reform-centered focus of his Yelk Alliance is what's drawn 
people so much.
    I think he has a very good mix of activist, politician. And, you 
know, as a journalist, he devoted so much of his time to analyzing the 
issues and trying to tell truthful stories. That was also very 
important.
    Mr. Price. And you mentioned his frankness. And I think that's one 
thing that's struck me from watching him lead the protests, and mostly 
in meetings, actually, with the government, when he met with the 
president at the Marriott in central Yerevan, and they had a 2-minute 
meeting or so, captured on camera, in which I believe the president 
walked out.
    Ms. Aghekyan. Yes. The president walked out. And I want to 
emphasize that that was a very sad moment for the president because--
or, I mean, the prime minister--because I think that may have been a 
moment where he knew that he was already done. That was right before 
his resignation. But it was also a very chilling one, because the 
president--the Prime Minister Sargsyan, he claimed that he was being 
blackmailed, and that's why he couldn't be at the meeting anymore. And 
then in what I think has been one of the scariest moments of this whole 
movement, he turned to the cameras and said: You know, have you learned 
nothing from what happened in 2018--which is when we had deadly----
    Mr. Price. 2008, right?
    Ms. Aghekyan. 2008, I'm sorry, which is when we had deadly 
electoral violence. But, you know, during this whole time, Pashinyan 
was sitting there, backpack right next to him, just watching it all 
unfold as if he was--he seemed like a frank outsider.
    Mr. Price. Well, I just was struck by how directly he engages and 
makes demands and makes very clear what he's out for. And recently it's 
only somewhat oblique, his positioning to present himself as the option 
for next prime minister. Is that something that rubs people the wrong 
way at all? Is it just attractive? Kind of what are the reads on his 
political style?
    Mr. Nix. I would just say he's been a masterful tactician so far. 
And in these situations where you have people in the street, there's 
lots of uncertainty, there's a lot of passion, one of the keys to 
making progress is to make very clear demands. And I think that's been 
the key here. Pashinyan has been very clear what it is that the 
``street,'' quote/unquote, demands from the government. And so I think 
that paves the way and positions him as a certain authority. I mean, 
basically he is being credited as the leader of this movement. It 
started out, young people--not necessarily political party affiliated--
but young people out in the streets, and political parties have joined 
in. But he is the definitive leader of this opposition movement, this 
ad hoc movement that has appeared suddenly.
    Ms. Aghekyan. Yes. And I will add to how tactical he is. I've 
noticed that he is a big fan of repetition which if I can recommend 
something to everyone, it's that a lot of local media outlets--
independent local media outlets have been livestreaming all of the 
rallies that are happening nightly where Pashinyan gives speeches. And 
they are doing incredible work with simultaneous English translation. 
So if you would like to see him in action, you absolutely should.
    And because I've been watching for about 2 weeks, at some points I 
was like, well, tell me something new. I wanted to hear it. But then I 
realized the brilliance of it is that he repeats. He repeats his 
demands, but he also, I think, repeats the sort of orders to his 
followers that have made the movement very successful, which is that--
remain peaceful, engage in civil disobedience, but, you know, be 
peaceful. Absolutely no violence. Do this. And he just keeps saying it. 
And obviously it's worked.
    About his frankness, I will say that I've noticed it as well. To 
me, some of it is worrying, in that when he says that as they're moving 
forward that the ruling party because of its role in creating Armenia's 
democratic problems should be not part of the negotiations. That, to 
me, has been very worrying. Saying that certain people should be shut 
out of the negotiations has raised some eyebrows. On the ground, most 
of it has been met with cheers. I'm not sure if--it's very difficult to 
tell if that's just the euphoria of the moment or if there are going to 
be questions that come up. But just because, you know, the negotiations 
haven't actually happened yet.
    So I think as decisions are made and as the public is privy to 
what's happening--because Pashinyan has asked that journalists be 
present at all negotiations so that no backdoor deals are made--I think 
people's opinions may become more clear as things actually move to 
implementation rather than just rallies.
    Mr. Price. And I was wondering with an international perspective as 
well, how do you think these events are being perceived in the Kremlin? 
And what do you make of the response so far from Russia, and also from 
the United States?
    Mr. Nix. Well, I'd like to commend U.S. Ambassador Mills for 
immediately addressing the situation, meeting with the government, 
meeting with opposition folks, and also urging that people remain calm 
and respectful, that he encouraged people to continue to bring their 
voice to the streets and protest but do so in a peaceful way. So I give 
the U.S. Government a lot of credit for getting involved immediately in 
the situation and playing a helpful role.
    With regard to the Russian Federation, it's been interesting to see 
the statements, very carefully worded, to describe this as an internal 
affair, a domestic affair, and not something that should include any 
sort of outside interference, because in my view the Russian Government 
views any transition of power outside of normal electoral timeframes as 
troubling. So the statements have been urging calm, internal affair. 
But you know that Russia is watching very closely these events.
    Ms. Aghekyan. One statement that I think was made, that I think was 
one of the last things I managed to see as I was trying to check on the 
news to see what had changed before I came in here and couldn't keep up 
with anymore, was that in talks that happened either today or 
yesterday, Russia did express expectations that things will be resolved 
quickly and that an interim prime minister will be chosen, and I 
believe asserted that--you know, the legitimacy of the 2017 election, 
and the constitution, and that things should, you know, follow in that 
framework. Which I think is sort of the biggest side we've seen them 
take, even though it's quite a formulated opinion. It's still very much 
hands off.
    Mr. Price. Interesting. Well, I'd like to turn it over to the 
audience as well. Edwin here has a microphone that he can pass to 
anybody who would like to ask a question.
    Scott in the back.
    Questioner. Hi. Thanks. Scott with House Foreign Affairs.
    Can I ask about the role of the military over the last 10 days? I 
saw some news reports about unarmed military-looking people, or people 
in camouflage uniform. Who were they? What was their role? What was 
their relationship to the Ministry of Defense? Any details on that 
would be appreciated.
    Mr. Nix. Sure. Scott, we saw the same reports. We understand that 
these are garrison troops in the city that left barrack without arms 
because they wanted to participate in the protests. I don't know very 
much beyond that in terms of specific units or what was behind it, 
except that they saw what was going on via television and world of 
mouth, and decided that they wanted to participate, which in my view 
was a very strong signal to the government and may have been a factor 
in the decision of the president.
    Ms. Aghekyan. I think----
    Mr. Nix. The prime minister, I'm sorry.
    Ms. Aghekyan. Yes, I know. It's very confusing. I think the only 
thing I'll add to that is that it's been a little worrying. Right after 
we saw this happen, and the news reports came out, activists on the 
ground grew quite concerned about what would happen to the unarmed 
soldiers in case Sargsyan didn't resign or even if he did, if there 
would be any repercussions. So far I am not aware of any, but it's just 
something to think about. Because, you know, as the protest happened 
there were some people that you could argue did things that they 
weren't supposed to. I mean, police beat journalists and participants. 
And then these unarmed soldiers left to go participate. So these are 
questions that also are going to have to be dealt with at some point. 
We just don't know much yet.
    Mr. Price. I was wondering if you could also address the Freedom 
House Nations in Transit Report that you worked on. I was briefed on it 
recently, and they showed a map of the Eurasian region. And it was 
color-coded with the different kinds of regimes that the Freedom House 
classifies the governments as, in light of the outcomes of their work 
and their methodology, and the only one that was a semi-consolidated 
authoritarian regime--is that their correct term--was Armenia. So it 
stood out very clearly on the map. And one of the comments that was 
made by the briefers what that that is the classification that often 
correlates the most directly to instability. And that was within a week 
of these events here. So I was wondering if you could just say a little 
bit more about kind of your principal findings, some of the general 
trends. And has Armenia been a semi-consolidated authoritarian regime 
for long, or----
    Ms. Aghekyan. I believe for a few years. This was definitely not 
the first year that Armenia has been a semi-consolidated authoritarian 
regime. So there is--consolidated authoritarian regimes, the semi-
consolidated, and there's the semi-consolidated democracies, and then 
the consolidated democracies in this report, which looks at all of the 
post-Communist countries in Europe and Eurasia. So Armenia is very 
unique in that if you're looking at it in the simplest regional context 
it's not as bad as Azerbaijan. We're not having media outlets shut down 
left and right. We don't have scores of journalists in prison. You 
know, you can at least--there are a lot of things that are very 
different, though it hasn't made the kind of progress, for example, 
that Georgia has made. So it is in a very unique position.
    I think from having worked at Freedom House previously as a staff 
member and then recently having been a consultant on this report, I 
think the instability hadn't quite struck me as one of the things to 
keep my eye on, just because Armenia had been making sort of steady 
negative steps, with its score getting lower and lower in very small 
ways, whether that was because of crackdowns on civil society or 
generally because of very bad elections, and increasingly worse 
elections. And then this year, the score that changed was for 
corruption because after the 2017 parliamentary elections, which really 
showed that there is minimal opposition in the parliament to speak of, 
the systemic nature of Armenia's corruption was just--it was bolstered 
that much more through the ruling party's control of the parliament.
    So you know, next year I'm already, you know, who's thinking about 
who's going to write the report next year and what exactly is it going 
to say as these things keep developing? And I'm hoping that it will be 
the first year of positive news for this report. But I'm going to 
remain cautiously optimistic only.
    Mr. Nix. Well, let me just add it's--with regard to the scope and 
pace of events--it's been incredibly difficult to keep up. And I can 
say that we altered our draft testimony three times yesterday, and 
we're even editing it this morning after the news events. Things are 
happening so quickly, very rapidly, and may continue to do so. So it's 
important that we all watch very closely.
    Mr. Price. Yes. I can't thank you both enough for having responded 
so quickly to this kind of snap briefing that we've been able to put on 
to help people to understand the unfolding events and the way forward. 
We're very much in the middle of a fluid situation.
    If there is another question from the audience, feel free to raise 
your hand and I'll call on you. Sure, here in the front.
    Questioner. Is the Russian Government involved in any way? Have 
they expressed opposition, support to what's going on?
    Mr. Price. Sorry. We're good? All right.
    Ms. Aghekyan. I can let you reiterate, yes.
    Mr. Nix. We've only seen the official statements. We know that 
Russian diplomats have been in touch with Armenian officials. And my 
understanding is the message that has been consistent is that Russia's 
urging calm and peace, and that this be confined in a domestic affair.
    Ms. Aghekyan. There was one interesting statement where an 
official, right after Sargsyan's resignation even said, you know, good 
job. Russia is with you, Armenians. Which was very unexpected. But so 
far it seems that the geopolitical element is calm.
    Mr. Price. And what about the media picture in Armenia? How are 
people getting their news about these events, and what's the general 
climate for press freedom?
    Ms. Aghekyan. That is a very good question. Most people who are not 
participating in Armenia and getting their news just as it happens and 
is announced, and people abroad as well, are getting their news from, I 
would say, from a small group of dedicated independent media outlets, 
like CivilNet.TV; Trace; Azatutyun, which is the RFE/RL Armenia 
Service; EVN Report, which is a newcomer; as well as from activists who 
have very active social media profiles. And I think this is--you know, 
social media has been--and online media have always played a large role 
in Armenia during protests or in just getting critical news out, just 
because television is not as objective as it could be. And I would say 
that this is the height of online media and social media activity that 
I have seen. And it is absolutely impressive what these small outlets 
are doing with the few resources they have. They're doing a commendable 
job, which I think is reason for everyone--whether that's legislators 
in Armenia or international funders--to see how much support is needed 
for independent media, that they're doing so many great things on their 
own.
    Mr. Price. That's very good to hear. Could you also address a 
little bit more the tactics that have been used in the protests? I 
think it's been interesting to read a little bit about the civil 
disobedience and creative tactics that have been used.
    Mr. Nix. Sure. Well, this has been a very organized series of 
protests. By organized, I mean there seems to be clear direction coming 
as to where to deploy, where to go, where to move. And so this is not 
any sort of mob mentality. This is very well-organized, No. 1. No. 2, 
very peaceful. This group has acted in a very calm, peaceful manner. 
There has been, as Elen said, no reports of violence. No reports of 
looting. No reports of disorderly control, drinking, any of that sort 
of thing. So No. 1 is they seem to be very organized. No. 2, very 
respectful, and very peaceful.
    Ms. Aghekyan. And, you know, some of the sort of nitty gritty 
tactics have been things that I think are designed to just attract 
people to join, just because it's so easy to engage. Like, for example, 
on one of the earlier nights of the protest, it was to take out a pot 
and, like, a kitchen utensil, and in the evening to just go outside 
your window and for a few hours bang on it, so that the city's sort of 
engulfed in the noise of the protesters. Blocking streets, just by sort 
of going across the intersection. Blocking streets has been a huge 
component. I think yesterday was supposed to be a day in which at 
around noon cars everywhere were supposed to just stand still, so that 
everyone just came to a quiet moment. So it's small things like this, 
which of course have been joined by the things that Armenian protests 
always feature, which is dancing and barbequing in the streets. So yes, 
it's been clever. It's been tactical. And it's been clearly designed to 
just appeal to regular people.
    Mr. Price. How did protesters handle the fact that the Armenian 
genocide commemoration fell right in the middle of this dramatic week?
    Mr. Nix. Well, it certainly has a--it's such an important day in 
the history of the country. And it's very important to the people. So, 
yes, I'm certain--it's my personal opinion that this also had an effect 
on the mentality of the people and made them think hard about the 
future of their country. And that could have entered into their 
decision to go to the streets.
    Ms. Aghekyan. It's also significant that Sargsyan resigned 
immediately before--right before April 24th. And you know, as I was 
thinking about how the protests would evolve, myself I was thinking, 
what's the tactical approach? What do you do on April 24th if the 
protests are still happening? Because on April 24th, in Yerevan 
traditionally, people are out on the streets anyway. It's a day of 
national remembrance. There is a march that goes all the way to the 
genocide memorial. So if people weren't on the streets protesting 
already, then more of them would be joining. So I imagine on the 
government side, this may have amounted to a small nightmare. And just 
because it meant multiplied numbers.
    And another question, but I'm not sure the validity of it--you 
know, I haven't heard official reports about it--but a lot of 
international analysts were saying that there cannot be a crackdown by 
police so close to Genocide Memorial Day, just because that is not 
something that any government could allow itself.
    Mr. Price. And it's a very interesting dynamic.
    There's another question here in the second row.
    Questioner. Hi. Yes, Mike Henning from USAID.
    Just a couple questions, one about the election law and the 
administration apparatus. That's been an area that the opposition has 
complained about and has talked about making changes to. So what are 
the nature of those demands and how likely are they to be enacted and 
carried out in the short term versus the longer term? And then my 
second question is on the use of social media. I think the opposition 
has been very clever about being careful. They were pausing some 
protests today because of fears of infiltration by agitators and others 
that might spark some kind of crackdown. Certainly online it's pretty 
easy to do that sort of thing, and from wherever in the world. So what 
are the things to look out for on the social media front, as far as 
infiltration by people that want to manipulate fake news, 
disinformation, what have you, to drive opinion?
    Thanks.
    Mr. Nix. Why don't I speak to the election law aspects. One of the 
common complaints throughout the years of international election groups 
that have monitored elections in the country is the failure of the 
election commissions at the local level to enforce the law, the 
bribery, pressure, use of administrative resources, those types of 
things. Many reports of ballot stuffing and interference and inaccurate 
tabulation of a ballot. So I think in terms of what the opposition 
would like to see in the event that there were a special election, 
they'd like to see change in the central election commission makeup. 
But they'd also like to see change in the makeup of local and regional 
commission as well. But they'd also, I would imagine, would push hard 
for significant changes in the law in terms of the powers of local 
commissions, and ensuring that the law was administered fairly--not 
just nationally, but at the local level as well, because it's been 
replete with problems in the various elections that just have never 
been addressed.
    Mr. Price. Could I ask you real quick, are those changes that could 
be made in advance of an election?
    Mr. Nix. Given the timeframe that I've outlined for everyone today, 
it would be difficult to do so under the terms of the special election. 
But I was speaking more in terms of the long term. And it may be that a 
special election is not called. But if there's a new prime minister and 
a new government, I think one of the priorities that the street will 
demand is radical election reform.
    Ms. Aghekyan. Absolutely. Especially since after the new electoral 
law came out I know there were--civil society was consulted, but a lot 
of their suggestions and a lot of their criticisms were just not 
properly addressed. And that has everything to do with--it's mostly the 
commissions, as you've said, but it also has to do with things like the 
thresholds. That parties and alliances have differing thresholds. So 
there's a whole host of issues. And I'm not sure if they're going to 
ask to go back to the drawing board and go through a process that 
includes everyone in a fair manner, which happens very rarely in our 
meeting, or if they're going to make some small fixes to ensure the 
independence of the process. But that's a pretty big question.
    So on the social media front, it's--in elections and in protests 
for the past few years, social media has been huge in just 
communications and news gathering, news sharing, simple information 
sharing, and organization as well. I will say that, you know, in 
contrast to the 2017 parliamentary elections, when there was a lot of 
fake news, a lot of bot activity, especially on Twitter, that went so 
far as to lead to the temporary blocking of a few prominent media and 
civil society accounts right on the eve of the election, this year we 
haven't seen anything as problematic. People, whether that's activists 
or organizers or ordinary people or journalists, are very active.
    And while you do see some things like accounts that are clearly 
bots just because they've been formed very recently or they're not 
active consistently, they have generic names, no photos, and are 
always--you know, you can read through their tweets that it's not quite 
a regular person observing the news and commenting on it--there are 
some. And we always notice those. You know, some activists notice that 
they get followed by a lot of bot accounts, right on the eve of 
something significant. Usually I think I've seen this time that they 
haven't been as active, just for example in the parliamentary 
elections. And I'm hoping they stay that way.
    Mr. Price. Since we've framed the title of this briefing as a 
question, I feel like we should pose the question: Is this a 
revolution? Is the R word appropriate for what we're seeing here? And 
if not, why?
    Mr. Nix. Well, that depends on how you define a revolution. 
Certainly it's been interesting that the Russian Government has not 
described these events as a colored revolution. But I think the 
Russians define that a different way than we do. This is certainly a 
people's mandate for change, a people's demand for change. And it's a 
great exercise in democratic and human rights for people to gather and 
to unite in a cause greater than themselves singularly. So whether or 
not we call it a revolution, whether we call it a color revolution, 
this is definitely an expression of freedom and free will and choice 
that I think is what a democracy is all about. So I'm encouraged, writ 
large. I'm extremely encouraged that so many youth are involved in 
this. And like Elen, I'm very positive about the outcome. There's a 
number of scenarios, as I outlined. But even in the minimalist 
scenario, you are going to see some change. And that's what people are 
advocating. So there will be change coming to Armenia. How much remains 
to be seen.
    Ms. Aghekyan. I agree. I think I can't add anything more.
    Mr. Price. I think that's a great note to end on.
    Well, thank you both very, very much, again, on short turnaround to 
appear here and prepare remarks in such a fluid situation. I know it's 
challenging. But I'm grateful for both of you helping us understand 
these situations together.
    Thank you.
    Mr. Nix. Thank you, Everett.
    Mr. Price. And thank you all for coming. [Applause.]
    [Whereupon, at 5:03 p.m., the briefing ended.]
 






  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe [OSCE].

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
